WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-8340
Reginald Charles Harvey

Tennessee, et al

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by

the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

®

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

General Sessions Criminal Court; Deputy Wise

Please check the appropriate box:

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's 0 fice, 1 First Street, NE, Washingtp, D.C. 20543).
Signature:
Date:

7/21/21

(Type or print) Name Sharon McMullan Milling
0 Mr.

0 Mrs.

Ms.

Firm

Hamilton County Attorney's Office

Address

625 Georgia Avenue, Suite 204

City & State

Chattanooga, TN

Phone

423-209-6150

0 Miss

Zip 37402

REOEIVED

Email sharonm@hamiltontn.gov

JUTE 2 7 2021
OFFICE OF THE CLERK

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate belova-NREME COURT U.S.
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Reginald Charles Harvey, Prisoner ID No. 314410, Autry State Prison, P.O. Box 648, Pelham, GA
31779

